OIG Investigative Reports, Bernard Lambert and Desiree Dean Kirn Lambert Sentenced in U.S. District Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
Monday, February 05, 2007
United States Attorney's Office for
the District of Montana
P.O. Box 1478
Billings, MT 59103
CONTACT: Kurt Alme
First Assistant U.S. Attorney
Telephone: (406)246-4669
Bernard Lambert and Desiree Dean Kirn Lambert Sentenced in U.S. District Court
Bill Mercer, United States Attorney for the District of Montana,
announced today that during a federal court session in Great Falls, on February
5, 2006, before U.S. District Judge Sam E. Haddon, BERNARD LAMBERT, age 58,
and DESIREE DEAN KIRN LAMBERT, age 51, residents of Poplar, appeared for sentencing.
BERNARD LAMBERT was sentenced in connection with his guilty plea to conspiracy
to defraud the United States and making false claims to a term of:
Prison: 12 months
Special Assessment: $100
Restitution: $12,000
Supervised Release: 3 years
DESIREE LAMBERT was sentenced in connection with her guilty plea to theft
and making false claims to a term of:
Prison: 12 months
Restitution: $13,855.74
Special Assessment: $225
Supervised Release: 3 years
In an Offer of Proof filed by the United States, the government stated it
would have proved at trial the following:
The Office of the Inspector General for the Department of the Interior received
information that the then Director of the Fort Peck Department of Education,
DESIREE DEAN KIRN LAMBERT, had criminally misapplied federal funds by authorizing
payments to BERNARD LAMBERT, ostensibly for writing grants on behalf of the
Fort Peck Department of Education.
Testimony would have been provided that from November of 2001 to December
of 2002, DESIREE LAMBERT authorized four payments to BERNARD LAMBERT, who at
that time, was the Superintendent for the Brockton School District. The four
payments totaled $12,000, which was payment for writing ten grant applications
on behalf of the Fort Peck Department of Education. The grant applications BERNARD
LAMBERT had been paid to write were for grants from various corporations and
a 21st Century Grant from the U.S. Department of Education (DOE). However, investigation
revealed through contact with the various corporations and the DOE, that none
of the grant applications that BERNARD LAMBERT had been paid to write were ever
received or funded.
DESIREE LAMBERT was interviewed and stated that BERNARD LAMBERT wrote all
of the grant applications for which he was paid. DESIREE LAMBERT further stated
that the Education Department did not receive any of the grants for which BERNARD
LAMBERT wrote applications. DESIREE LAMBERT claimed to be in possession of the
diskette that BERNARD LAMBERT submitted that contained all of the grant applications;
however, the diskette was never provided to the Department of Interior.
BERNARD LAMBERT was interviewed and admitted that he had been paid $12,000.
He also stated that he wrote all of the grant applications that he was paid
to write. He claimed he submitted all ten of the grant applications on a single
diskette to DESIREE LAMBERT in February or March of 2003. He further stated
he was still in possession of the diskette which contained all of the grant
applications. He repeatedly stated that he would provide this diskette to the
Department of Interior, however, the diskette was never provided to the Department
of Interior.
Because there is no parole in the federal system, the "truth in sentencing"
guidelines mandate that BERNARD LAMBERT and DESIREE LAMBERT will likely serve
all of the time imposed by the court. In the federal system, BERNARD LAMBERT
and DESIREE LAMBERT do have the opportunity to earn a sentence reduction for
"good behavior." However, this reduction will not exceed 15% of the overall
sentence.
Assistant U.S. Attorney Carl E. Rostad prosecuted the case for the United
States.
The investigation was a cooperative effort between the Office of the Inspector
General for the Department of the Interior and the Office of the Inspector General
for the U.S. Department of Education.
Top
Printable view
Share this page
Last Modified: 02/22/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov